                                   September 30, 1998


                                   JOHN E. POTTER
                                   SENIOR VICE PRESIDENT, LABOR RELATIONS

                                   SUBJECT: Supervisor Knowledge of Union Contracts
                                   (LM-MA-98-001)

                                   During an audit of the grievance-arbitration procedures1 for
                                   United States Postal Service (USPS) bargaining employees,
                                   you asked that we determine whether supervisors have the
                                   necessary knowledge and information to fulfill their
                                   responsibilities in administering the union contracts. This
                                   report contains our observations in this area, which are based
                                   on interviews with 169 supervisors and 15 labor relations
                                   specialists from 10 districts.2 These interviews were
                                   conducted during May and June, 1998.

Results in Brief	                  The surveys of USPS supervisors disclosed that only 42
                                   percent of those interviewed rated themselves as “extremely”
                                   or “very” knowledgeable of union contracts. Eighty-three
                                   percent of the supervisors considered themselves to be “self­
                                   taught.” Of those supervisors who had and could remember
                                   the dates of formal training, 30 percent indicated that such
                                   training predated the current national contracts, and 20
                                   percent reported it to be 10 years old.

                                   Supervisors also conveyed that they had not received
                                   grievance settlements, arbitration decisions, and other
                                   interpretive guidance that would have been instrumental in
                                   clarifying contract provisions and ensuring consistent
                                   contract administration. Without a good understanding of
                                   the union contracts, supervisors told us they believe that they


1
 Audit results will be issued in a series of reports, the first of which will be released in fiscal year 1999.
2
 The Districts visited were Boston, Cincinnati, Columbia, Fort Worth, Gateway, Long Island, Pittsburgh,
San Antonio, Springfield and Tennessee.
Supervisor Knowledge of Union Contracts	                                           LM-MA-98001




                             are at a disadvantage in managing labor relations on the
                             workroom floor and in negotiating grievance settlements
                             with union representatives. We believe a better
                             understanding of the union contracts can help supervisors
                             avoid actions that give rise to grievances and would facilitate
                             resolution of more grievances at earlier stages of the process.

Background	                  Most USPS craft employees are represented by one of four
                             unions, the (1) American Postal Workers Union, (2)
                             National Association of Letter Carriers, (3) National Postal
                             Mail Handlers Union, or (4) National Rural Letter Carriers’
                             Association. Every four years a separate national agreement
                             or contract is negotiated with each union, and contract
                             provisions outline the terms and conditions of employment
                             for employees in that union. In addition, three of the four
                             unions allow for agreements to be negotiated at the local
                             level relating to matters on local conditions of employment.
                             The terms of the local contracts vary. The union contracts
                             also establish grievance-arbitration procedures that provide
                             employees and unions a means to resolve complaints
                             concerning USPS’ administration of the union contracts.

                             Putting the agreements into practice at the operating level
                             (contract administration) and grievance resolution are
                             primarily the responsibilities of supervisors. To fulfill these
                             responsibilities, supervisors must have a good understanding
                             of both the national and applicable local agreements. The
                             USPS Supervisor’s Guide to Handling Grievances
                             emphasizes that in order to properly respond to grievances,
                             supervisors need to be familiar with applicable union
                             contract provisions, outcomes of prior similar cases, and any
                             information relating to applicable policies. It advises
                             supervisors to consult grievance settlements and arbitrator’s
                             decisions, which form the predominant basis for clarifying
                             and interpreting USPS’ contracts with its unions. Grievance­
                             arbitration decisions also provide supervisors with feedback
                             on the impact of their decisions and the appropriateness of
                             their actions in dealing with workplace disputes relating to
                             the union contracts. As a result, these decisions are key to
                             effective contract administration.




                                                2
                                     Restricted Information
Supervisor Knowledge of Union Contracts                                                   LM-MA-98001



Observations
                    Of the 169 supervisors we interviewed, only 42 percent
                                 indicated that they were “extremely” or “very”
                                 knowledgeable of national and local union contracts. The
                                 remaining 58 percent rated their knowledge as “average” or “
                                 limited.” Survey results confirmed that individuals
                                 temporarily detailed to supervisory positions (“204-B”
                                 supervisors)3 frequently were the least knowledgeable of the
                                 union contracts. Additionally, when asked why grievances
                                 were not settled at Steps 1 and 2, 60 percent of the labor
                                 relations specialists we interviewed told us that supervisors’
                                 lack of understanding of the union contracts was a factor. A
                                 labor relations specialist in one district also attributed
                                 contractual grievances to the actions of “204-B” supervisors
                                 who unknowingly violated the union contracts.

                                 Eighty-three percent of the supervisors we interviewed
                                 considered themselves to be “self-taught” or otherwise
                                 acquired their contractual knowledge through on-the-job
                                 experiences. The remaining 17 percent indicated that they
                                 had some formal training, but considered a significant
                                 portion of their knowledge to be based on reading books and
                                 manuals and on-the-job experiences. Thirty percent of the
                                 supervisors who had and could remember the dates of their
                                 formal training told us that such training predated the current
                                 national contracts, and 20 percent reported it to be 10 years
                                 old.

                                 Forty percent of supervisors interviewed also told us that
                                 they had not received grievance settlements, arbitration
                                 decisions, and other interpretive guidance that would have
                                 been instrumental in clarifying contract provisions and
                                 ensuring consistent contract administration.4 At each district
                                 we visited, one or more supervisors told us that they had not
                                 been apprised of the outcome of grievances for which they
                                 were responsible. Communicating grievance outcomes
                                 highlights actions that could have been taken at the
                                 operational level to resolve grievances. Supervisors that we
                                 interviewed were generally not aware of, and did not have




3
 Although we did not d etermine what percentage of supervisors interviewed were “204-Bs,” we believe the
percentage to be small based on the years of supervisory experience reported by each supervisor.

                                                    3
                                         Restricted Information
Supervisor Knowledge of Union Contracts	                                                       LM-MA-98001


                                  access to, the USPS’ national database of grievance­
                                  arbitration decisions. This database, which provides
                                  outcomes of prior grievance cases, is used by labor relations
                                  personnel to negotiate grievance settlements and to prepare
                                  for arbitration hearings. These supervisors expressed a
                                  desire for interpretive guidance on the union contracts
                                  because they believe the contracts are overly complex or
                                  unclear in some areas.

                                  Ten percent of the supervisors who told us they did not have
                                  a good understanding of union contracts also believed that
                                  they were at a disadvantage in managing labor relations on
                                  the workroom floor and in negotiating grievance settlements
                                  with union representatives. Ten percent of the supervisors
                                  who told us they did not have a good understanding of union
                                  contracts also told us that they felt disadvantaged when
                                  confronted with union stewards that had, in their opinions,
                                  superior training on union contract language and who were
                                  armed with national strategies for dealing with specific
                                  contract issues5 . One supervisor observed that union
                                  stewards are required to understand only their union’s
                                  contract, while supervisors are required to understand the
                                  provisions of at least two or more contracts depending on the
                                  union affiliation of employees assigned to their facilities and
                                  the number of local agreements. A better understanding of
                                  the union contracts can help supervisors avoid actions that
                                  give rise to grievances and facilitate resolution of grievances
                                  at earlier stages of the process.

Suggestions
                      Based on our observations, we suggest that you initiate the
                                  following actions:

                                  1.	 Assess the training needs of supervisors, and where
                                      necessary, develop and provide formal training on union
                                      contracts.

                                  2.	 Develop and distribute contract interpretive guidance to
                                      supervisors.

                                  3.       Inform supervisors of grievance outcomes for cases
                                  that they have been involved in and use the rationale for
4
  The remaining 60 percent of the supervisors interviewed did not identify t he lack of interpretive guidance
as a barrier to effective contract administration.
5
  This represents the views of USPS supervisors. We did not assess the training received by USPS
supervisors or that received by union representatives.
                                                        4
                                             Restricted Information
Supervisor Knowledge of Union Contracts                                            LM-MA-98001


                             decisions as a continuous learning opportunity.



Management                   USPS officials agreed with the intent of our suggestions and
Comments                     stated the following:

                             Suggestion 1: The headquarters Labor Relations department
                             developed a four-hour labor relations course for supervisors
                             that will be delivered during fiscal year 1999. The training is
                             in support of the key strategies and values to improve
                             supervisor and manager people skills, and concentrates on
                             employee treatment, contract compliance and
                             communication. Designed into the course is a section
                             whereby local contractual issues of concern are addressed.
                             Management further stated that this is the first national labor
                             relations training program designed at the Headquarters level
                             for supervisors and managers.

                             Suggestion 2: Management noted that the USPS and NALC
                             developed a Joint Contract Administration Manual, which
                             was distributed nationwide to all delivery units in June 1998.
                             Management also stated they are presently attempting to
                             reach agreement with the APWU on developing a similar
                             manual.

                             Suggestion 3: Management stated that there are two ongoing
                             labor relations training programs for Labor Relations
                             Specialists. In both of these courses Labor Relations
                             Specialists are advised of the necessity to inform supervisors
                             when a grievance is sustained either by a Labor Relations
                             Representative or an Arbitrator. In addition to emphasizing
                             the above in future training classes, management stated they
                             will issue instructions to Field Labor Relations Specialists on
                             this issue.

                             A copy of management’s verbatim comments on the draft
                             version of this report is included as Appendix 1.

Evaluation of                Management’s comments are generally responsive to the
Management                   issues and suggestions identified in this report.
Comments                     Management’s efforts to develop and distribute contract
                             interpretive guidance to supervisors should be expanded to
                             include the National Postal Mail Handlers Union and the
                             National Rural Letter Carriers’ Association.
                                               5
                                    Restricted Information
Supervisor Knowledge of Union Contracts	                                          LM-MA-98001




                             If you have any questions about this report, please call
                                    or me at (703) 248-2300.
                             Sincerely yours,


                             Billy Sauls
                             Assistant Inspector General
                               for Employee

                             Attachment

                             cc: 	John R. Gunnels
                                   Alan B. Kiel




                                                6
                                     Restricted Information
Supervisor Knowledge of Union Contracts                      LM-MA-98001




Major contributors to this advisory were:




                                               7

                                    Restricted Information
